No.

IN THE
SUPREME COURT OF THE UNITED STATES

PETITIONER

JOHN LAPONTE
vs.
CRAIG KOENIG

RESPONDENT

PROOF OF SERVICE
I, JOHN LAPONTE, do swear or declare that on this date:_________________________
as required by Supreme Court Rule 29 I have served the enclosed MOTION TO PROCEED
IN FORMA PAUPERIS and PETITION FOR-WRIT OF CERTIORARI on each party to the above
proceeding of that party's counsel, and on every other person required to be served
by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first class postage prepaid, or be
delivery t;o a

third party connercial carrier for delievry within 3 calendar days.

Respondent's Counsel:

Office of the Attorney General
300 South Spring Street
Los Angeles, CA. 90013-1230

I, declare under the penalty of perjury that the foregoingis true and correct.
Executed on Q

~ 07 - &/

